No. 19-0557

IN THE SUPREME COURT OF THE UNITED STATES

CEDRIC L. McDONALD, Petitioner,
v.

UNITED STATES, Respondent.
CERTIFICATE OF SERVICE

I, Timothy Grammel, a member of the Bar of this Court, hereby certify that on the 22nd day of
November, 2019, I hand delivered forty booklet-format copies and one unbound copy of the U.S. Army Trial
Defense Service’s Brief for Amicus Curiae in support of the petitioner in the above-captioned case to the
Clerk of the Supreme Court of the United States.

I further certify that on the same date as above, I hand delivered three copies of the U.S. Army Trial
Defense Service’s Brief for Amicus Curiae in support of the petitioner for the above-captioned case to the
counsel of record for the petitioner. I also transmitted a copy of this filing by electronic mail to the counsel of
record for the petitioner.

I further certify that on the same date as above, I mailed through the United States Postal Service, by
first class mail, postage prepaid, three copies of the U.S. Army Trial Defense Service’s Brief for Amicus
Curiae in support of the petitioner for the above-captioned case to the Solicitor General of the United States,
Room 5616, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001, counsel
for the respondent herein. I also transmitted a copy of this filing by electronic mail to
supremectbriefs@usdoj.gov.

I further certify that all parties required to be served have been served.

l anélly |

Lanne}
Timothy Grammel

Counsel of Record
Trial Defense Service
U.S. Army Legal Services Agency
9275 Gunston Road
Building 1450
Fort Belvoir, VA 22060
(703) 693-0362
timothy. grammel.civ@mail.mil

            
